DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General

      Targeting of Cargo Containers 2008: 

      Review of CBP’s Cargo Enforcement 

        Reporting and Tracking System 





OIG-08-65                            June 2008
                                                                       Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                               June 11, 2008


MEMORANDUM FOR: 	              W. Ralph Basham
                               Commissioner
                               U.S. Customs and Border Protection


FROM:      	                   Richard L. Skinner
                               Inspector General

SUBJECT: 	                     Targeting of Cargo Containers 2008: Review of CBP’s Cargo
                               Enforcement Reporting and Tracking System (OIG-08-65)

As required by Section 809(g) of the Coast Guard and Maritime Transportation Act of 2004
(Public Law 108-293), we conducted an annual audit of the Automated Targeting System (ATS).
We performed the audit at CBP Headquarters in Washington, D.C. between April 2007 to
June 2007 under the authority of the Inspector General Act of 1978, as amended, and according
to generally accepted government audit standards. The objective of our audit was to determine
whether U.S. Customs and Border Protection (CBP) is effectively developing and implementing
the Cargo Enforcement Reporting and Tracking System (CERTS). CERTS is designed to gather
data on cargo examination findings and report on how efficiently examination equipment is
being used. Analysis of this information can be used to improve CBP’s ability to identify high-
risk cargo containers entering the United States and examination methodologies.

Results of Audit

CBP could improve its management and oversight of the development and implementation of
CERTS. Specifically, CBP has not updated the CERTS project plan, to include the scope of
work, a detail implementation schedule for system design, development, and testing, and cost
estimates past Phase 1. In addition, CBP bypassed key Customs Standard Life Cycle reviews
designed to ensure end-users have a properly working system and have received management’s
approval to continue the project. As a result, CERTS project development was delayed and not
fully available to end-users as CBP originally planned. CBP concurred with our
recommendations and has taken or said it will take prompt steps to develop, implement, and
monitor an updated CERTS project plan.




                   Review of CBP’s Cargo Enforcement Reporting and Tracking System 


                                               Page 1 

Background

The cornerstone for all of CBP’s targeting efforts is ATS, an intranet-based enforcement and
decision support tool to help CBP Officers safeguard our borders by identifying cargo and
personnel entering the U.S. that need further scrutiny. ATS is comprised of several targeting
modules, including ATS4-N, used for targeting inbound cargo. CERTS is a subsystem of the
ATS4-N module. CERTS is being developed to provide a user-friendly, single-point-of-entry for
CBP Officers to electronically document cargo examination results and provide management
with information on how efficiently examination equipment is being used. According to CBP,
CERTS will improve CBP’s ability to target cargo for inspections.

Information system development projects, such as CERTS, require effective management and
oversight to ensure that they are developed on schedule and within budget, and produce the
expected results. OMB Circular A-130 requires agencies to use a performance-based
management system that provides timely information regarding the agency’s progress in
developing and implementing information technology (IT) investments. According to
Circular A-130, the performance system used by project managers must measure progress
towards milestones in an independently verifiable basis, in terms of cost, and capability of the
investment to meet specified requirements, timeliness, and quality.

CBP’s Systems Development Life Cycle Handbook (Handbook), (CIS HB 5500-07A, dated
February 2, 2001 and revised December 9, 2005 and November 9, 2006), establishes CBP’s
policy on the development of life cycles, processes, and documentation requirements for IT
projects. The Handbook requires that a project plan be created and reviewed as early in the life
cycle as possible and later modified, revised, reviewed, and re-approved as more detail is
developed during the course of the project or as changes are required and corrective actions
taken. Documenting changes is a mandatory management support activity that occurs at every
stage in the life cycle. According to the Handbook, all IT projects, pilots, and prototypes must
follow the Customs Standard Life Cycle (CSLC). The CSLC framework describes the critical
activities, reviews, and deliverables organized into stages that must occur during a development
life cycle (See Appendix A for an overview of the stages in the CSLC). The Handbook also
requires the development of detailed work schedules and estimates that include work products,
efforts, and costs.

CBP prepared five iterative versions of the CERTS Project Plan. The first four versions called
for all CERTS capabilities to be delivered in one release. CBP originally planned to conduct a
pilot program from March to September 2006 and deploy CERTS to all ports by November
2006. However, during system development, CBP experienced technical challenges. In
response, the latest, and fifth, version of the CERTS Project Plan (Version 1.5, dated September
6, 2006), introduced a phased implementation strategy. The phased implementation strategy
requires that for each phase of the project, CBP define the scope of work and schedule for system
design, development, and testing. For Phase 1, CBP selected to implement 40 of the 147 user
and functional requirements at 22 major seaports.




                 Review of CBP’s Cargo Enforcement Reporting and Tracking System 


                                              Page 2 

Project Plan Not Fully Revised

Although the Project Plan was revised to show a phased implementation, the Plan’s scope of
work, schedule, and cost estimates for the CERTS design, development, and testing was not
updated to coincide with the phased implementation strategy. For the scope of work, CBP did
not describe the number of CERTS phases, the user and functional requirements to be included
in each phase, the work to be performed in each phase, or the detailed development methods and
management strategies as required by the Handbook.

CBP’s schedule for CERTS was not revised and updated to provide for the development and
implementation of multiple CERTS phases. Consequently, the schedule does not include
timeframes for the end of the Phase 1 pilot program and the deployment to all subsequent ports.
In addition, the schedule does not include expected dates for the mandatory CSLC milestones for
the remaining CERTS phases.

CBP has not revised, updated, and documented the project plan for cost estimates or sources of
funding to complete CERTS under the phased implementation strategy. CBP originally
estimated the cost of CERTS to be $7.2 million over five years, including operations and
maintenance costs. According to the CERTS budget, CBP will have spent approximately $5.66
million for FYs 2005 through 2007 and spend the remaining $1.54 million for FYs 2008 through
2010. This remaining amount does not appear sufficient to complete the CERTS project, based
on the additional requirements planned with needed stages of development, construction, testing,
piloting, and deployment. CBP officials said they were aware that additional funding will be
needed to design, construct, test, pilot, and deploy the remaining phases.

CBP officials said that delays in updating the project plan and schedule were partly the result of
technical challenges identified during the pilot program and the need to complete prioritizing the
remaining CERTS requirements. These technical challenges included complexities in migrating
to a new ATS architecture, significant performance issues identified during the CERTS testing,
and problems with developing the software. Updating the project plan will help CBP
management track and monitor the project and take timely corrective actions to ensure that
CERTS is developed on schedule and within budget, and produces the expected results.

Management Reviews By-Passed

CBP bypassed two significant stages: the Test Readiness Review and the Quality Assurance
Reviews for Phase 1 of CERTS. CBP may have mitigated some of the technical challenges
encountered with the software during the Phase 1 pilot program had it conducted those reviews
at the end of the construction stage. These reviews are designed to present a work product to
end-users and receive management’s approval for continuing to the next phase.

Test Readiness Review

CBP bypassed the Test Readiness Review at the end of the construction stage and continued to
the next stage of development. This review is a formal management meeting intended to ensure
the proper operation and integration of equipment and software before continuing with the
                 Review of CBP’s Cargo Enforcement Reporting and Tracking System 


                                              Page 3 

project. Unit and integration testing are key activities where testers and senior managers
document their concurrence that the system and software are ready to enter the next stage, which
is the acceptance stage.

Quality Assurance Review

CBP bypassed the Quality Assurance Review at the end of the construction stage, and proceeded
directly into the acceptance stage, where CBP conducted the Phase 1 pilot program. Quality
Assurance Reviews ensure that user requirements are met, processes are documented and
followed, work products and activities comply with all applicable standards and requirements,
and new systems work with existing systems. Quality Assurance teams conduct reviews and
provide project staff and senior managers with the results. The Handbook requires that quality
assurance occur at each stage of the CSLC and that a formal Quality Assurance Review occur
before transition to the acceptance stage. According to CERTS project officials, CBP bypassed
the Test Readiness Review and Quality Assurance Review to provide CERTS to the end users
more quickly. CBP used the Phase 1 pilot program to identify and correct application,
programmatic, functionality, and usability issues.

Recommendations

We recommend that the Commissioner, U.S. Customs and Border Protection:

   1.	 Develop, implement, and monitor an updated CERTS project plan that includes:

           a.	 Details of the work to be performed in each phase of the project;
           b.	 Revised schedules for the design, development, testing, and deployment of all
               CERTS phases; and
           c.	 Cost estimates and sources of funding to complete all CERTS phases.

   2.	 Utilize the CSLC for all CERTS phases to focus on satisfying user requirements, 

       including mandatory reviews to improve management’s oversight of the project. 


Management Comments and OIG Analysis

CBP provided formal comments on a draft of our report (see Appendix B). CBP concurred with
our recommendations and has taken or will take prompt steps to develop, implement, and
monitor an updated CERTS project plan. CBP also said it will use the CSLC for all CERTS
phases to focus on satisfying user requirements, including mandatory reviews to improve
management’s oversight of the project. We agree with the steps CBP has taken, and plans to
take, and believe these steps satisfy our report recommendations.

We look forward to learning more about CBP’s continued progress in the development and
implementation of CERTS. Should you have any questions or concerns, please call me, or your
staff may contact Anne L. Richards, Assistant Inspector General for Audits, at 202-254-4100.


                 Review of CBP’s Cargo Enforcement Reporting and Tracking System 


                                             Page 4 

Appendix A
Customs Standard Life Cycle – Overview




                Review of CBP’s Cargo Enforcement Reporting and Tracking System 


                                            Page 5 

Appendix A
Customs Standard Life Cycle – Overview




                Review of CBP’s Cargo Enforcement Reporting and Tracking System 


                                            Page 6 

Appendix B
Management Comments




             Review of CBP’s Cargo Enforcement Reporting and Tracking System 


                                         Page 7 

Appendix B
Management Comments




             Review of CBP’s Cargo Enforcement Reporting and Tracking System 


                                         Page 8 

Appendix C
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      GAO/OIG Liaison Office
                      CBP Commissioner
                      CBP Audit Liaison
                      Assistant Secretary for Legislative Affairs
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




            Review of CBP’s Cargo Enforcement Reporting and Tracking System 


                                         Page 9 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
